No. 20-1501

IN THE
Supreme Court of the United States

ROMAN CATHOLIC DIOCESE OF ALBANY, ET AL.,

Petitioners,
v.
SHIRIN EMAMI, ACTING SUPERINTENDENT, NEW YORK
STATE DEPARTMENT OF FINANCIAL SERVICES, ET AL.,
Respondents.

CERTIFICATE OF SERVICE

As required by Supreme Court Rule 29.5, I hereby certify that three copies of
the Reply Brief for Petitioners in Roman Catholic Diocese of Albany v. Emami, No.
20-1501, were served via overnight mail on all parties required:

Barbara D. Underwood

Solicitor General
OFFICE OF THE ATTORNEY GENERAL
28 Liberty Street
New York, NY 10005-1400
(212) 416-8016
Barbara.underwood@ag.ny.gov

Counsel for Respondents

I declare under penalty of perjury that the foregoing/s true and correct.

Date: September 3, 2021

 
